No.

21-

IN THE
SUPREME COURT OF THE UNITED STATES

Robert Paul Rundo, et al.,
(Your Name)

— PETITIONER

VS.

United States of America

— RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to ﬁle the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:

x Petitioner has previously been granted leave to proceed in forma pauperis in

the following court(s):
U.S. Court of Appeals for the Ninth Circuit
U.S. District Court for the Central District of California
 Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
 Petitioner’s afﬁdavit or declaration in support of this motion is attached hereto.
 Petitioner’s afﬁdavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:

x The appointment was made under the following provision of law:

18 U.S.C. § 3006A
 a copy of the order of appointment is appended.

(Signature)

, or

